<html>
<title> - E-GOVERNMENT 2.0: IMPROVING INNOVATION, COLLABORATION, AND ACCESS</title>
<body><pre>[Senate Hearing 110-894]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-894
 
   E-GOVERNMENT 2.0: IMPROVING INNOVATION, COLLABORATION, AND ACCESS

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
40-507                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
              Adam R. Sedgewick, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
           John K. Grant, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S




                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Akaka................................................    25
    Senator Carper...............................................    31
Prepared statement:
    Senator Collins..............................................    39

                               WITNESSES
                       Tuesday, December 11, 2007

Karen S. Evans, Administrator, Office of Electronic Government 
  and Information Technology, Office of Management and Budget....     3
John Lewis Needham, Manager, Public Sector Content Partnerships, 
  Google, Inc....................................................     6
Ari Schwartz, Deputy Director, Center for Democracy and 
  Technology.....................................................     9
Jimmy Wales, Founder, Wikipedia..................................    12

                     Alphabetical List of Witnesses

Evans, Karen S.:
    Testimony....................................................     3
    Prepared statement...........................................    40
Needham, John Lewis:
    Testimony....................................................     6
    Prepared statement...........................................    56
Schwartz, Ari:
    Testimony....................................................     9
    Prepared statement with an attachment........................    62
Wales, Jimmy:
    Testimony....................................................    12
    Prepared statement...........................................    85

                                APPENDIX

Questions and responses for the record from:
    Ms. Evans....................................................    91
Charts submitted by Senator Landrieu.............................    96
American Library Association, prepared statement.................   113
National Academy of Public Administration, prepared statement....   117


   E-GOVERNMENT 2.0: IMPROVING INNOVATION, COLLABORATION, AND ACCESS

                              ----------                              


                       TUESDAY, DECEMBER 11, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, and Carper.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning and welcome to each of you. Thanks very much for being 
here.
    Five years ago this month, the President signed into law 
the E-Government Act of 2002--a bill that I was privileged to 
be a lead co-sponsor with a former colleague--Senator Conrad 
Burns. Another colleague who some of you still may be hearing 
about, Senator Fred Thompson, was involved in parts of the 
proposal. The aim of the bill was to bring the Federal 
Government into the Internet age so that we could better serve 
the public. The goal of the bill, as I said at the time, was to 
exchange the cumbersome, static, and often bewildering process 
for citizens to get information and conduct transactions with 
government agencies for a ``dynamic, interactive, and user-
friendly government.''
    Today we are going to ask how close the government has come 
in the ensuing 5 years to achieving that goal. As I see it in 
sum, much has been achieved over the past 5 years, but there 
certainly is a lot more that we can and must do. That is why 
Senators Collins, Carper, and I introduced legislation to 
reauthorize the E-Government Act, S. 2321, for an additional 5 
years, and also to add some strength to it. One month ago, this 
Committee favorably reported the bill out, and I am optimistic 
that we are going to be able to move it through the Senate 
soon.
    Our first witness today, Karen Evans, is the Administrator 
of the Office of E-Government and Information Technology at the 
Office of Management and Budget, a position that was created in 
the original E-Government Act. Her testimony will provide an 
overview of what we have been able to achieve since passage of 
the Act, what challenges have arisen, and what the future goals 
are for E-Government.
    We are also going to examine an important issue addressed 
by our reauthorization bill, which is that the public 
frequently cannot find information and services placed on 
government websites. It is a pretty basic problem. And the 
source of it is that information and services placed on many 
government sites, through practice or policy, are simply 
inaccessible to commercial search engines such as Google. Our 
bill aims to remedy this by requiring regular review, 
reporting, and testing across the Federal Government of 
accessibility to search capabilities.
    Two of our witnesses today, John Needham from Google and 
Ari Schwartz from the Center for Democracy and Technology will 
discuss this problem, why it exists, and what relatively simple 
steps can be taken to overcome it and vastly expand the ease of 
citizen access to Federal Government information.
    In this regard, our reauthorization bill may already have 
had an impact. Of course, in the normal processes of 
Washington, we will immediately take credit for this whether it 
did or not. Last week the Office of Personnel Management 
announced that it would make available to commercial search 
engines for the first time the listing of the 60,000 job 
vacancies that now exist in the Federal Government. That is 
significant. And it will have, we think, an immeasurable effect 
on the ability of people seeking employment in the Federal 
Government to use the Internet to find and apply for such 
positions. And it shows, I think, how easily we can 
dramatically expand access to possibilities and information in 
the Federal Government.
    Today we will also examine how new collaborative 
technologies can strengthen interaction among government 
agencies and the public. We are very glad to have as a witness 
Jimmy Wales, the founder of Wikipedia, one of the most 
thrilling examples of what collaborative technology can 
produce. We have asked Mr. Wales to take us through some of the 
ideas behind Wikipedia and then to relate them to our 
jurisdiction, which is to say to help us understand how similar 
technologies and collaborative activities can be applied to 
government for greater information sharing and communication, 
both within the government, but also between the government and 
the public.
    In fact, quite encouragingly, the intelligence community 
has already developed and is using a process collaborative 
technology that they call Intellipedia, which is based directly 
on the Wikipedia model. So Mr. Wales, if imitation is a form of 
flattery, you should feel flattered. And the aim of this is to 
foster collaboration and information across the intelligence 
community, obviously on a closed site.
    While our focus today is on the Executive Branch, I think 
it is also important to acknowledge that we, in the Legislative 
Branch, have a lot more that we can do better in this regard as 
well.
    In this spirit, Senators McCain, Collins, and I are today 
introducing legislation that will require the Congressional 
Research Service to make its extremely valuable taxpayer funded 
reports more easily accessible to the taxpayers. No method 
currently exists for the public to access these reports quickly 
and easily, though those who can afford to pay can now access 
them through private companies who gather them. Our bill would 
allow members and committees to easily post all CRS reports on 
their websites so they are more readily available to anyone 
with access to the Internet.
    The Legislative Branch can also do a much better job of 
presenting information to the public about the status of bills 
and resolutions before Congress. We in Congress have access to 
a comprehensive website run by the Library of Congress, but the 
public site, known as THOMAS, is far less advanced. 
Furthermore, Senate votes unlike House votes are intentionally 
presented in a format that limits the public's ability to 
examine Senator's records which may be tempting, for sure, but 
not in the public interest.
    Incidentally, it is a bit silly too, because I can tell you 
that in Connecticut every Sunday in at least two of the major 
newspapers they print the votes of the Connecticut delegation 
in the preceding week.
    I intend to work with my colleagues and the Library of 
Congress to eliminate these blocks to transparency and 
accountability. So these issues are essential, I think, to the 
future of an effective and responsive government. These really 
quite miraculous technologies, which I find my children's 
generation are taking for granted, yet still amaze me and they 
enable us to do things that quite recently we were unable to 
do.
    Just as the private sector has harnessed these new 
technologies to fuel its growth in an information-based 
economy, we in government have a responsibility to keep pace 
with the skill set of that up and coming workforce, as well as 
with the underlying new technologies, to meet our 
responsibility to the public.
    So I look forward very much to this discussion today.
    Our first witness is Karen Evans, Administrator of the 
Office of Electronic Government and Information Technology at 
OMB.
    Good morning, thanks for being here. We look forward to 
your testimony.

   TESTIMONY OF KAREN S. EVANS,\1\ ADMINISTRATOR, OFFICE OF 
  ELECTRONIC GOVERNMENT AND INFORMATION TECHNOLOGY, OFFICE OF 
                     MANAGEMENT AND BUDGET

    Ms. Evans. Good morning, Mr. Chairman. Thank you for 
inviting me to speak about the current status of E-Government, 
the potential for collaborative technologies, and any remaining 
potential challenges for the future of E-Government Services.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Evans appears in the Appendix on 
page 40.
---------------------------------------------------------------------------
    As you stated, this December 17 marks 5 years since the 
President signed the E-Government Act of 2002 into law. The 
passing of this Act was an acknowledgment of the rapid 
transformation the Internet and Information Technology has on 
the way citizens, private business, and government interact 
with one another. Currently, our efforts such as the Federal 
Enterprise Architecture and the Government Lines of Business 
are used to enhance collaboration among Federal agencies by 
aligning their business processes at a strategic level, which 
makes it easier for them to partner and work with one another.
    It is the challenge of getting these processes 
institutionalized which is one of the difficulties in getting 
agencies to collaborate and share information better. And it is 
also one of the remaining challenges for E-Government, when 
looking ahead and attempting to transform services and get 
results.
    Before addressing what has been accomplished over the last 
5 years, I wanted to briefly update the Committee on the latest 
security and privacy metrics across the Federal Government. 
Title III of the E-Government Act, otherwise known as the 
Federal Information Security Management Act (FISMA), calls for 
a comprehensive framework for ensuring the effectiveness of 
information security controls over information resources 
supporting Federal operations and assets. Our latest FISMA 
fiscal year 2007 fourth quarter report continues to show 88 
percent of all major IT systems across the Federal Government 
have been certified and accredited, while 19 out of the 25 
major agencies have Privacy Impact Assessments for 90 percent 
or more of the applicable systems.
    Overall, we considered FISMA to be successful in helping to 
meet the goal of improved information security across Federal 
IT systems and we will continue to work with agencies to 
increase security and privacy effectiveness, while at the same 
time managing risk to an acceptable level. We will be providing 
our annual FISMA report to Congress on March 1, 2008.
    Overall, good progress has been made toward achieving the 
core goals of the E-Government Act, namely to increase access 
to government information and services and to provide enhanced 
opportunities for increased citizen participation in 
government. Some notable examples of this are the Federal 
Internet Portal which is up and running at USA.gov. People can 
easily participate in Federal rulemaking process through 
Regulations.gov. And the process of doing Privacy Impact 
Assessments has helped to protect the personally identifiable 
information (PII) in the care of the government.
    Compared to 2002, there are now easy to use online 
government services that the public can access. More 
importantly though, people are using and embracing these 
services.
    USA.gov achieved an incredible 97 million visits during 
fiscal year 2007 or 1.87 million visits per week. This last 
year USA.gov also received numerous national recognitions for 
the quality and the effectiveness in providing government 
information to the public and was highlighted in July 2007 by 
Time Magazine in an article entitled ``25 Sites We Can't Live 
Without.'' USA.gov now features multiple channels to allow 
citizens to contact them with questions about Federal 
Government information and services through the National 
Contact Center and through the new online live assistance chat 
features.
    GovBenefits.gov, led by the Department of Labor, empowers 
people to make decisions for themselves and their families by 
providing a single website to access information on more than a 
1,000 government benefit and assistance programs. 
GovBenefits.gov significantly reduces the amount of time 
individuals spend trying to identify and access relevant 
information about government benefit programs. By answering a 
few specific questions, individuals are better able to 
determine which government benefits they may be eligible to 
receive along with a description and contact information for 
each program. To date, GovBenefits.gov is receiving 
approximately 250,000 visits per month by citizens and has 
provided nearly 5.5 million citizen referrals to benefit 
programs.
    State and local governments have also benefited from our 
efforts. The E-Government Act provides State and local 
governments the opportunity to use the GSA Federal supply 
schedules for automated data processing equipment, software, 
supplies, support equipment and services as included in their 
Schedule 70. GSA issued its final rule authorizing the 
acquisition of IT by State and local governments on May 18, 
2004.
    Recently, under the SmartBUY Initiative, which is Software 
Managed and Acquired on the Right Terms, that leverages the 
entire Federal Government's buying power. We awarded contracts 
for the latest security encryption products and services at 
discounted prices. This was the first time a SmartBUY agreement 
was extended to State and local governments, allowing them to 
leverage their purchasing power alongside the Federal 
Government, and allowing them to purchase the same products 
comparable to what the Federal Government has.
    When looking ahead, we see many of the presidential E-
Government initiatives as foundational services, positioning 
the government to be more collaborative, transparent, and 
accountable through the use of information technology. 
Initiatives such as Regulation.gov provide an environment to 
allow for a collaborative approach, truly fostering E-
Democracy, which brings citizen participation in government 
back to a more personal level. In fact, the purpose of many of 
the initiatives is to provide a more citizen-centered approach 
toward the delivery of government services so the people 
themselves are not just recipients but also active participants 
in how these services are delivered.
    Helping to further the goal of a more citizen-focused 
government will be the Federal CIO Council. Through this top-
level coordination, the CIO Council will continue to play a key 
role in the future of promoting and working to implement the 
next generation of E-Government services which takes advantage 
of the successes and lessons learned from the past 5 years. The 
Council will leverage the presidential E-Government initiatives 
and lines of business which have matured and are ready to move 
to the next level of service for a more citizen-centric, 
collaborative approach toward the delivery of government 
information and services.
    Today people demand and expect electronic services from 
their government. The advancements in private sector in 
providing user-friendly and time-saving electronic services 
have shown that the public benefits from these capabilities. 
There is an expectation that the American people has for their 
government to delivery the same high quality services while 
also protecting their privacy. As I have discussed today, 
through highlighting several accomplishments that we have 
achieved over the last 5 years, the government is making 
significant strides toward meeting these expectations with the 
effective, collaborative, time-saving electronic services and 
providing citizens with increased opportunities to participate 
in government while managing the risk associated with these 
services.
    The E-Government Act of 2002 has proven to be a pivotal 
piece of legislation enabling the Federal Government to 
recognize and take action on the changes the Internet and 
information technology has on society and government. 
Reauthorization of the E-Government Act will further promote 
online access to government information and services and show a 
commitment to implementing convenient and time-saving 
electronic services.
    In addition, a well-informed citizenry is essential to a 
healthy democracy and the new provisions on the best practices 
for the search functionality included in the reauthorization 
act will leverage the advances made in search technology to 
help ensure government information and services remain easily 
accessible by everyone.
    Last, the reauthorization will allow the intent and the 
purpose of the E-Government Act to continue to be a driving 
force behind increased opportunities for the American public to 
participate in the government.
    I would be happy to take questions at the appropriate time.
    Chairman Lieberman. Thanks, Ms. Evans. That was a very good 
beginning and we will have questions.
    John Lewis Needham is a Manager of Public Sector Content 
Partnerships for Google, Inc.
    I know I should not do this, but I feel I have a 
responsibility to my family and friends to ask whether you were 
at the Google wedding this weekend? [Laughter.]
    Mr. Needham. I had to be here, so I could not attend. 
[Laughter.]
    Chairman Lieberman. OK. Very good. Thank you.
    Mr. Needham, thanks for being here. We are all great 
admirers and users of Google. We look forward to your testimony 
now.

  TESTIMONY OF JOHN LEWIS NEEDHAM,\1\ MANAGER, PUBLIC SECTOR 
               CONTENT PARTNERSHIPS, GOOGLE, INC

    Mr. Needham. Thank you. Chairman Lieberman, Ranking Member 
Collins, and Members of the Committee, it is a great pleasure 
to be with you this morning to discuss Google's role in making 
government more accessible to citizens.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Needham with an attachment 
appears in the Appendix on page 56.
---------------------------------------------------------------------------
    My name is John Lewis Needham. I am the Manager of Public 
Sector Content Partnerships at Google. In this capacity, I lead 
the company's efforts to build public-private partnerships with 
government agencies in the U.S. and internationally.
    Google's mission is to organize the world's information and 
make it universally accessible and useful. Making government 
information more accessible does not just help citizens find 
the content they need, it also enables the government to 
provide services more efficiently to taxpayers and makes our 
democracy more transparent, accountable, and relevant.
    This Committee has a long tradition of promoting these 
values, which Google shares. For example, Google Maps and 
Google Earth, which rely in part on government-provided 
geospatial data, can be used by the government to better serve 
its citizens. To offer two illustrations, the U.S. Geological 
Survey recently used Google Maps to show realtime data on 
earthquakes all around the world. And the National Park Service 
is using Google Earth to inform citizens about recreation 
opportunities across the country.
    This morning, I will focus my testimony on how people 
throughout our Nation are using the power of web search engines 
to find and interact with our government. First, I will share 
some trends on how Americans connect with government online. 
Second, I will identify the challenges that citizens face in 
trying to find government information services on the Internet. 
Third, I will explain a technology known as a Site Map Protocol 
which enables government agencies to make their content more 
accessible to search engine users. And finally, I will 
highlight a few of our successful partnerships with government 
and outline steps that agencies can take to make their websites 
more accessible.
    Let me start by describing how citizens today are 
connecting with government information online. According to 
recent research by the Pew Internet and American Life Project, 
at least 77 percent of U.S. Internet users go online to find 
some form of government information. We also see that Internet 
users are choosing search engines like Google as their 
preferred way to connect with the government.
    To clarify, search engines work by sending a software 
program to ``crawl'' the pages on public websites, adding this 
information to our index. As a result, when a Google user types 
a query into the search box, we very quickly access that index 
to return relevant search results. Here is an example. The 
National Institutes of Health's website, NIH.gov, offers a rich 
collection of public health and medical information from the 27 
institutes and centers that comprise NIH.
    Let us say that you are trying to find out the status of a 
study on avian flu. You might not be aware of one relevant NIH 
service, which is located at ClinicalTrials.gov or how to get 
directly to the page that lists all current avian flu related 
studies. So you start your search on Google.com. This is a 
likely scenario, given that very few Internet users go directly 
to the NIH.gov website. In fact, according to our analysis of 
Internet traffic to NIH websites during July 2006, only 4 
percent of visitors arrived at NIH.gov web pages through typing 
the address NIH.gov directly into their browser.
    This example is consistent with research by Google and 
others on the flow of Internet traffic, which indicates that as 
many as four out of five Internet users in the United States 
reach government websites by using Google and similar search 
engines. But if the information on a particular government 
website is not part of a search engines index, citizens are 
bound to miss out on that information.
    Search engines have made connecting to online government 
resources easier, but challenges remain. Specifically, we have 
found that many government agencies structure their websites in 
ways that prevent search engines from including their 
information in search results, often inadvertently. The most 
common barrier is a search form for a database that asks users 
to input several fields of information to find what they are 
looking for. Our crawlers cannot effectively follow the links 
to reach behind the search form.
    Let me offer an illustration. A citizen may be interested 
in locating the Environmental Protection Agency's enforcement 
actions regarding a particular company. So that user conducts a 
search on Google.com with the company's name and the key words 
EPA enforcement. The results of this search for EPA enforcement 
and a company name would include relevant information, 
obviously, but would not include information from the EPA's 
Enforcement and Compliance History online database which offers 
a list of enforcement reports for specific companies. This is 
because the information in this database, again this EPA 
Enforcement and Compliance History online database, cannot be 
included in a search engine's index.
    Now EPA.gov is certainly not the only government website 
that search engines have difficulty indexing. In fact, we 
estimate that the information in all or part of 2,000 Federal 
Government websites is not included in search engine results.
    Now with all of that said, the good news is that there is a 
simple technical solution to address this problem. In 2005, 
Google introduced a standard called the Sitemap Protocol that 
helps ensure the accessibility of information on a website. It 
allows a website owner to produce a list, or map, of all web 
pages on the site and systematically communicate this 
information to search engines. When a Federal agency places a 
site map on its website, search engines can readily identify 
the location of all pages on the site, including database 
records lying behind a search form. Using this sitemap, search 
engines are more likely to index, and make visible to citizens, 
the information on the agency's website.
    The Sitemap Protocol has been widely embraced by the search 
engine industry including Google, Microsoft, Yahoo!, Ask.com, 
and others. What this means is that by implementing sitemaps, a 
government agency can ensure that it is serving the American 
people no matter which search engine they are using.
    Implementing the Sitemap Protocol is free and easy. It does 
not require site redesign, the purchase of new technology, or 
more than a few hours or days of the webmaster's time. 
Implementation involves creating a list of web pages in an 
acceptable format and adding a file that contains this list to 
a website. Google provides a variety of tools to accomplish 
this task and we present them to public sector web managers at 
Google.com/publicsector.
    It is important to note today that I am only talking about 
information that is already public. Content that is maintained 
on internal websites, including personally identifiable and 
classified information, should not be made accessible through 
any search engine and is not the type of information we are 
working to index.
    We believe it would be technically simple for Federal 
Government agencies to produce a sitemap for the information on 
their websites and that doing so would bring significant 
benefits. And we know that implementing a protocol is easy to 
do because we have worked with many government partners at all 
levels to take this step. For example, the Department of 
Energy's Office of Scientific and Technology Information 
operates a large database that makes research and development 
findings available to the public. OSTI developed a sitemap for 
its energy citations and information bridge services in just 12 
hours, opening 2.3 million bibliographic records and full text 
documents to crawling by search engines. After its 
implementation of sitemaps, OSTI saw a dramatic increase in 
traffic to its services as more citizens discovered these 
resources.
    Other Federal agencies that have recently embraced sitemaps 
include the Government Accountability Office, which used the 
standard to make a database of 30 years of GAO reports visible 
to search engine users; the Library of Congress, which has made 
its American Memory Collections easier to find; the National 
Archives and Records Administration, which is now in the 
process of sitemapping the Federal Government's largest public 
database; and GovBenefits.gov, referenced by Administrator 
Evans, which now makes its profiles of over 1,000 benefit 
programs just one search away. And OPM, referenced by you Mr. 
Chairman, which is also taking the step of making its job 
postings more accessible to search engine users.
    At the State and local level, we have launched partnerships 
with the States of Arizona, California, Florida, Michigan, 
Utah, Virginia, and with the District of Columbia. These 
partnerships are making it easier for residents to uncover job 
postings, reports on school performance, and the professional 
license records of contractors.
    The private sector long ago recognized the increasing 
importance of web search, but unfortunately the Federal 
Government lags behind. Last month this Committee took an 
important step in elevating the profile of these efforts by 
voting in favor of the E-Government Reauthorization Act of 
2007. The Act directs OMB to create guidance and best practices 
for Federal agencies to make their websites more accessible to 
external search engine crawlers. It also requires Federal 
agencies to ensure their compliance and directs OMB to report 
annually to Congress on agencies' progress. We commend Chairman 
Lieberman, Ranking Member Collins, and the Committee Members 
for their leadership on this issue and we look forward to 
working with you to enact this important legislation.
    Mr. Chairman, while my remarks today may have focused on 
websites and search engines, it is clear that in the years 
ahead government agencies will need to make information in 
other formats more accessible. In the Web 2.0 world, where more 
and more citizens are using blogs, wikis, online mapping, video 
sharing services, and social networking sites to communicate 
and collaborate with each other, there will be even more demand 
for government to bring information to citizens through these 
new platforms.
    We at Google are excited by the promise of this trend and 
we are committed to continuing to better connect government to 
citizens.
    Thank you, and I look forward to answering your questions.
    Chairman Lieberman. Thanks very much, Mr. Needham.
    Interesting testimony. It has framed the question that the 
Committee is very focused on, which is how to make publicly 
available government information easily accessible over a 
search engine. So we look forward to coming back to that 
discussion.
    Ari Schwartz is the Deputy Director of the Center for 
Democracy and Technology. Good morning.

   TESTIMONY OF ARI SCHWARTZ,\1\ DEPUTY DIRECTOR, CENTER FOR 
                    DEMOCRACY AND TECHNOLOGY

    Mr. Schwartz. Thank you very much, Mr. Chairman. And thank 
you for holding this public hearing on the future of E-
Government and inviting me to participate.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Schwartz appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    The hearing falls, as several people have said, almost 
exactly 5 years after the passage of the E-Government Act. 
Unquestionably, the Federal Government's use of Information 
Technology to deliver information and services to citizens has 
improved over that time and the E-Government Act deserves some 
credit for ensuring these important improvements.
    This accomplishment is due in no small part to you, Mr. 
Chairman, and your work and the Members of this Committee, and 
especially to Ms. Evans and the work of her staff on 
implementing the E-Government Act.
    However, over the past 5 years, we have also learned a 
great deal from agency implementation of the law about what 
areas can be improved. Five years of experience, technological 
progress, and changes in user expectations should guide 
revisions to the E-Government Act to facilitate availability of 
resources to the public and privacy protections for the new 
technologies.
    In particular, I would like to discuss two major areas that 
we, at the Center for Democracy and Technology, believe could 
be addressed with a relatively minor amount of attention.
    The first of these is the area of accessibility of 
government information. This issue was addressed in the E-
Government Act in several ways. For example, the Act called for 
the creation of a central government portal, now housed at 
USA.gov. The Act focused on standards of categorization for 
government information so that it could be more easily found. 
And the Act created several new means for agencies to work 
together to help deliver information services to citizens 
outside the bureaucratic silos.
    Simply put, the E-Government Act promotes the idea that 
citizens should not need to know what agency has particular 
information or services in order to find that information.
    Today my organization, CDT, along with our colleagues at 
OMB Watch, released a report that found that many of the newly 
created resources within agencies and across agencies are not 
available to individuals to find through the major commercial 
search engines and USA.gov, the very sources that the Pew 
Internet Life project says individuals are most likely to use 
to look for government information.
    Let me give three examples. The first, GovernmentLoans.gov, 
is a site that provides an easy-to-use central place to find, 
among other loans, all farm loans across the government. But if 
a small farmer were to enter the term ``farm loans'' or 
``government farm loans'' into Google, Yahoo!, Ask, Microsoft 
Live, or even USA.gov, they would not find this important 
resource.
    In another example of direct relevance to the homeland 
security mission of this Committee, a search for the term ``New 
York radiation levels'' turns up some important information but 
does not find the most basic graph from the Homeland Security 
Department website that is directly available.
    Even more troubling, basic government support answers to 
questions such as ``I am not allowed to visit my grandchildren, 
what can I do?'' that are directly answered on the Department 
of Health and Human Services frequently asked questions page 
can only be found by digging very deep into the agency's 
website today.
    As Mr. Needham explained, there are simple reasons why 
these searches do not find government information that is 
otherwise available on the World Wide Web. Either the agencies 
are blocking search engines from looking for this information, 
or they are not taking proactive steps to allow the information 
in the database to be searched.
    Making this information available is not difficult; in fact 
many agencies have done so, including those listed by Mr. 
Needham earlier. We hope that other agencies will follow suit 
and that OMB will encourage them to do so.
    As more information is made easier to search, we are almost 
certain to find that some contain personally identifiable 
information. For example, when the government contracting 
databases were recently made more available, we found that the 
USDA was publicly releasing the Social Security numbers of 
their contractors. While this had been happening for years, it 
took the direct release on the Internet and easy searchability 
to find this clear violation of the Privacy Act.
    The E-Government Act recognized that making more 
information available online was certain to raise new privacy 
concerns, and in order to address this problem Congress took 
the bold step of requiring online privacy statements and 
Privacy Impact Assessments (PIAs) for all new and changed 
collections and new databases.
    The Privacy Impact Assessments were designed to provide 
greater transparency to how the government collects and uses 
personal information. Over the past 5 years, PIAs have become 
an essential tool to help protect privacy. They have been 
called one of the three pillars of the U.S. Government privacy 
policy. Unfortunately, as with other privacy laws, the Federal 
Government has unevenly implemented the most basic transparency 
requirements of PIAs across the agencies. The guidance issued 
by OMB pursuant to the Act with respect to PIAs was vague and 
has simply not provided agencies with enough information to 
successfully implement PIAs unless they already had privacy 
staff on hand.
    While some agencies, like the Department of Homeland 
Security, have set a high standard for PIAs and have continued 
to improve them over time, the lack of clear guidance has led 
some agencies to create cursory PIAs or none at all. We hope 
that the best practices on PIAs called for in the E-Government 
Reauthorization Act passed by this Committee already can be a 
starting point for OMB to begin providing more leadership on 
privacy issues.
    Even then, the transparency provided by the PIAs must not 
be viewed as a full solution on privacy. Congress must begin to 
address more fundamental privacy issues within government 
agencies to ensure the trust of the American people. This 
should begin with a review of the Privacy Act and a look into 
whether the law is adequate to address how the Federal 
Government uses personal information today.
    We look forward to working with this Committee to help 
address these critical privacy issues in more detail in the 
near future.
    Finally, I wanted to thank you, Mr. Chairman, for your 
announcement today on efforts toward openness in the 
Legislative Branch as well as in the Executive Branch. In 
particular, CDT has been a champion of gaining greater public 
access to Congressional Research Service reports since they 
were rated the No. 1 most wanted government document in a 
report that we did in 1998. Since then, we have created the 
OpenCRS.com website to gather public reports, but the public 
should expect to get access to these important policy papers in 
a more systematic way. Therefore, we look forward to working 
with you on seeing this resolution move forward and we thank 
you for your leadership on this important issue. Thank you very 
much.
    Chairman Lieberman. Thanks, Mr. Schwartz.
    I appreciate your mention of the CRS. It is quite a 
remarkable office, much larger than what most people would 
guess. And it has within it real scholars on an extraordinary 
array of subject matter, policy matters, and they do very high 
quality work. It ought to be public. It benefits us, but it 
ought to be public for all of the many people out there who 
would benefit from seeing the product of this very high level 
research. Thanks for your support for that.
    Mr. Wales, thanks for being here. We welcome your testimony 
now.

        TESTIMONY OF JIMMY WALES,\1\ FOUNDER, WIKIPEDIA

    Mr. Wales. Thank you. My name is Jimmy Wales and I am the 
founder of Wikipedia, as well as founder of the non-profit 
charity The Wikimedia Foundation, which hosts the Wikipedia 
project and several other related projects.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Wales appears in the Appendix on 
page 85.
---------------------------------------------------------------------------
    I am grateful to be here today to testify about the 
potential for the Wikipedia model of collaboration and 
information sharing which may be helpful to government 
operations and homeland security.
    To introduce this potential, I would like to first talk 
about our experience with Wikipedia. The original vision 
statement for Wikipedia was for all of us to imagine a world in 
which every single person on the planet is given free access to 
the sum of all human knowledge. That is what we are doing.
    Wikipedia currently consists of more than nine million 
encyclopedia articles in more than 150 languages. While the 
English project is the largest, with over 2 million articles, 
this represents less than one-fourth of the total work.
    Wikipedia is currently increasingly important around the 
world with more than half a million articles each in German and 
French, and more than 250,000 articles in several additional 
European languages, as well as more than 400,000 articles in 
the Japanese language.
    Despite being blocked in the People's Republic of China for 
the past 2 years, the Chinese language Wikipedia, which is 
primarily written by Chinese speakers in Hong Kong, Taiwan, and 
around the world, is a healthy community project with more than 
150,000 articles and a strong growth rate.
    At a time when the United States has been increasingly 
criticized around the world, I believe that Wikipedia is an 
incredible carrier of traditional American values of 
generosity, hard work, and freedom of speech.
    Now I would like to talk a little bit about how open, 
collaborative media like wikis enable more efficient gathering 
and dissemination of useful information. Although it may be 
counterintuitive that opening up a wiki project leads to a more 
useful compendium of information, that is what our experience 
has been with Wikipedia. And I believe that experience can the 
same for government agencies and operations, as well.
    The method of production for Wikipedia is highly 
innovative. And in keeping with the old adage, necessity is the 
mother of invention, the story of how Wikipedia came to be is, 
I hope, both instructive and entertaining.
    Wikipedia was born of the famous dot-com crash. In the 
early days of the project, we worked together as a community 
with only a shoestring budget. If the financial climate had 
been better, then I would have likely turned to hiring 
employees to fill some critical functions. But because 
investment money and advertising revenue had completely dried 
up, we were pushed to find new solutions, solutions of 
community institutions to manage processes that would have been 
traditionally handled in a top-down manner.
    As a result, we pushed the limits of the new Internet 
medium to create a new kind of community and a new kind of 
encyclopedia, one controlled by volunteer administrators and 
editors working together in a grand global conversation to 
create something new.
    According to firms that measure Internet usage, Wikipedia 
is now the eighth most popular website in the world. And yet 
despite competing in some sense with companies with billions of 
dollars to invest, Wikipedia survives on an incredibly modest 
budget. Last year we spent around $1 million and although this 
year we are spending a bit more, our budget is still minuscule 
compared to that of most other tech enterprises, even if you 
limit the comparison to other top websites.
    The First Amendment plays an important role in this 
project, as do traditional American ideas of individual 
responsibility. Under U.S. law, everyone writing in Wikipedia 
takes responsibility for his or her own actions, just as it is 
true of everyone speaking in any public forum. The maintainer 
of this forum, the Wikimedia Foundation has set down some 
fundamental codes of conduct including, but not limited to what 
constitutional scholars call time, place, and manner 
restrictions. And I have personally imposed policies which 
strive toward respect for others, quality writing and the 
citing of sources.
    It is counterintuitive to some that an open discussion with 
virtually no top-down command and control structures can 
generate a high quality encyclopedia. Nevertheless, it does.
    To illustrate our success improving the quality of 
Wikipedia, we are currently celebrating a study published in 
the German weekly news magazine, Stern. According to this 
study, which just came out last week, Wikipedia scored higher 
in all but one categories than the standard German encyclopedia 
Brockhaus. The one standard we fell a little bit short on was 
readability. I promise, we are working on that one every day.
    Now given that Wikipedia is a public enterprise open to the 
entire public for collaboration and contribution, you may be 
wondering how wikis or the Wikimedia model may be useful to 
government. First of all, I want to note generally that there 
are other ways in which a wiki can be set up usefully, 
including set ups that do not involve opening the wiki to the 
general public. You can control access, and a wiki might be 
useful to an agency that wants to facilitate information 
sharing up and down the hierarchy for increased vertical 
sharing. And controlled access wikis can be set up to share 
inter-agency information, so increased horizontal sharing, as 
well.
    The main point here is there is no requirement of necessity 
for the tool of a wiki to be open to the general public in 
order for it to be useful. The word wiki comes from a Hawaiian 
word wiki wiki, meaning quick. The concept of a wiki was 
originally created by a famous programmer named Ward 
Cunningham, who lives in Portland, Oregon. The basic idea of a 
wiki is quick collaboration. When people need to work together 
to produce some document, the only option in the old days would 
be to email around a text file or word processing document. The 
wiki represents a crucial innovation allowing for much greater 
speed. The most basic idea of a wiki is a website that can be 
easily edited by the readers, but modern wikis contain simple 
yet powerful features that allow for the users to control and 
improve the quality of the work.
    Wikipedia represents the power of a wiki open to the 
general public, but I believe the same wiki technologies that 
powers Wikipedia is also being widely adopted inside many 
enterprises. And I will note here in passing a couple of 
examples of this innovative use, one in private enterprise and 
one in the U.S. Government.
    First, consider Best Buy. Recently great companies such as 
Best Buy have been using wiki technology across the enterprise 
to foster faster information sharing and collaboration inside 
the enterprise. To give a hypothetical example of how this 
works, imagine the car stereo installer in a Best Buy store in 
Florida who discovers a faster or easier way to install a 
particular brand of stereo. This information can now be shared 
directly peer-to-peer to other stereo installers within the 
company across the entire store network. In the past, this kind 
of local information discovery was lost or isolated.
    One Harvard professor's research suggests that one key to 
successful use of new technologies is adoption. The tools must 
be easy to use and valuable in the day-to-day life of those 
using them.
    Now I will take a quick look at Intellipedia. I am not an 
expert on intelligence gathering, so I will simply quote a 
useful resource, Wikipedia, regarding Intellipedia. The 
Intellipedia consists of three wikis. They are used by 
individuals with appropriate clearances from the 16 agencies of 
the U.S. intelligence community and other national security 
related organizations including combat and commands and Federal 
departments. These wikis are not open to the general public.
    The Intellipedia uses Mediawiki, which is the same software 
used by Wikipedia, and the officials who have set up the 
project say that it will change the culture of U.S. 
intelligence community which have been widely blamed for 
failing to connect the dots before the attacks of September 11, 
2001.
    Tom Fingar has gone on record describing one of 
Intellipedia's intelligence successes. Mr. Fingar told 
DefenseNews.com that a worldwide group of intelligence 
collectors and analysts used Intellipedia to describe how Iraqi 
insurgents are using chlorine in IEDs, improvised explosive 
devices. They developed it in a couple days interacting in 
Intellipedia, Mr. Fingar said: No bureaucracy, no ``mother may 
I,'' no convening meetings. They did it and it came out pretty 
good. That is going to grow.
    As you can see, just as the dot-com crash forced private 
industry to think about more efficient and effective ways to 
use digital technology, the attacks on the United States forced 
our intelligence community to explore innovate ways to share 
intelligence among agencies.
    This brings us back to what might be called the lesson of 
Wikipedia, that an open flat forum allowing many stakeholders 
to participate can facilitate information sharing in an 
extremely cost-efficient manner and it can take advantage of a 
wider range of knowledgeable people than traditional 
information sharing processes do.
    Good democratic governments strive to be responsive to 
citizen's needs. In order to do so, it is important that 
governments use technology wisely to communicate with the 
public and also to allow the public to communicate with the 
government.
    It is my belief that the government of the United States 
should be using wiki technology for both internal and public 
facing projects. As with any large enterprise, internal 
communications problems are the cause of many inefficiencies 
and failures. Just as top corporations are finding wiki usage 
exploding because the tool brings about new efficiencies, 
government agencies should be exploring these tools, as well.
    The U.S. Government has always been premised on 
responsiveness to citizens, and I think we all believe good 
government comes from broad, open public dialogue. I therefore 
also recommend that U.S. agencies consider the use of wikis for 
public facing projects to gather information from citizens and 
to seek new ways of effectively collaborating with the public 
to generate solutions to the problem that citizens face.
    Thank you for inviting me to testify about the potential 
for the Wikipedia model to improve our government's ability to 
share and gather information for increased security, for 
increased governmental responsiveness in our open society, and 
for the preservation of democratic values. Thank you.
    Chairman Lieberman. Thanks, Mr. Wales. That was great, and 
necessity mothered a great invention.
    I love the story of the founding of Wikipedia. And if I may 
say so, and I appreciate your saying that in some ways, it is 
classically American. And this is a part of American history, 
part of the American experience that goes right back to the 
beginning. It always struck me as instructive, that among the 
founding generation of Americans were some remarkable 
inventors, beginning with Franklin and Jefferson. And obviously 
this continued, in many ways, throughout our history with the 
extension of the American frontier and all of the advances that 
have occurred since.
    But you have really done that, along with your colleagues, 
in this age. And so I thank you for it.
    And I thank you for the suggestions that you have made 
about how this collaborative technology can help us, in 
government, do our job better. I want to come back to that in a 
few minutes. But let me start with this question that we were 
focused on in the reauthorization, which is the problem of 
access through search engines.
    Mr. Needham, you testified that in whole or part, there are 
2,000 Federal Government websites that are not included in 
search engine results. And I wanted to ask you why, and to 
expand a bit on what you said. I know you had a reference to 
EPA and NIH. But is it accidental? Is it that they are not 
going the extra mile to make this happen? Or is there some 
policy? Or is it plain laziness that is bringing us to a point 
where we should not be?
    Mr. Needham. Right, happy to speak to that.
    So I think the principle factor that we can look to is that 
governments produce lots of information and have a mandate to 
disseminate that information. And to do that, agencies rely on 
large databases to hold public records and present government 
programs to citizens. So that is one factor, lots of 
information, hard to disseminate it efficiently.
    But these databases, the EPA example I gave and many others 
that I could point to at the Federal, State, and local level. 
They typically present to the user a search form by which that 
user then types in key words to find the report they are 
seeking, or the record or what have you. These search forms 
cannot be navigated by search engine crawlers. We cannot reach 
behind to see what is there and add those records to our index.
    And because, as we have experienced in our communication 
with agencies, they tend not to think as much about how 
citizens are going about finding information but rather about 
how their website is presented to citizens, they have not 
taken, by and large, this step of providing us a means of 
finding those records behind that search form. And that is what 
the Sitemap Protocol technology enables. It provides the agency 
a simple mechanism for pointing out to a search engine crawler, 
these are all of the records in this database, come here and 
crawl them.
    Chairman Lieberman. I appreciate the answer. So you have 
now created a tool that should make it much easier for Federal 
Government websites to be included in search engine results.
    Let me go back to you, Ms. Evans, and ask you if you want 
to add at all to Mr. Needham's answer about why some agencies 
have not made their web pages available to commercial search 
engines?
    Ms. Evans. Well, I think Mr. Needham hit on the first issue 
about it is a lot of information and therefore we try to figure 
out the best way to efficiently deliver it, which is through 
databases and organization that way.
    The other part, which Mr. Needham has also highlighted, is 
the partnership that we need to work out with commercial search 
capabilities, because many times when we start delivering these 
next level of services, what we have also done is streamlined 
the support services associated with those.
    So in talking with Google and other search companies, we 
try to present the information in a context. We may not be 
doing it in the most efficient way to provide a context around 
it. For example, on GovBenefits.gov, when we initially talked, 
we have a whole support mechanism behind that. So we try to 
filter so that we do not create frustration in the citizen as 
well and present a whole series of results to them. And what 
they do is they see what they are basically eligible for.
    Now what we need to do is work in partnership, which is 
what your reauthorization allows us to do, is that there is a 
balance between us trying to streamline our backline and making 
sure that the citizen really knows what they are eligible for 
and also making the information commercially available to the 
search engines, because it is all out there. We just want to 
make sure that we are providing it in a context so that we do 
not create more frustration.
    Chairman Lieberman. So leaving aside matters that we might 
not want to have easy access to, because of privacy concerns or 
classification, is there any other policy reason that would 
justify limiting access to otherwise publicly available 
information on Federal websites through search engines?
    Ms. Evans. No, sir. The way that we have put together the 
policies, but we would need to go back and relook at that to 
see of any agencies may be interpreting it that way. But the 
way that the policy is based on the current E-Government Act, 
it is for greater dissemination of public available 
information. And then also, the Administration has passed an 
Executive Order, again supporting the Freedom of Information 
Act, saying look even further at your information and make this 
available before it is asked for.
    So that information is out there. But we do have to do it 
in a way that it is easily accessible through the means that 
citizens research and look for the information.
    Chairman Lieberman. I appreciate that answer because that 
is certainly our intention, that except for privacy and 
classification reasons, everything else should be maximally and 
as easily as possible available to the public including through 
search engines.
    Mr. Schwartz, do you want to add anything to this 
discussion?
    Mr. Schwartz. I think Ms. Evans made a good point about the 
context issue. I think it is an important one. But I also think 
that the American people are smart and they know how to use 
search engines. While it may be frustrating a few people, we do 
not want to block information from the vast majority of people 
who would be able to figure out the context and use that 
information. For the minority of people that cannot figure it 
out, that might be frustrating, but at least they have an 
opportunity for access.
    So I think that there is sort of a balance there of how do 
you give the right context but make the information as 
maximally available as possible and maximally searchable as 
possible.
    Mr. Needham. If I may add a comment on this, as well.
    Chairman Lieberman. Please.
    Mr. Needham. We worked with the State of Arizona earlier 
this year to open up eight of their major databases, which were 
not initially designed to be crawled by search engines. And the 
pages that they present to users, indeed may not be utterly 
clear to the user on first blush, but they did so. They opened 
these databases. And as we indicated in a report we published 
or a case study we published yesterday on this website I 
referenced, Google.com/publicsector, the administrators of 
these agencies, whose databases were opened, are very pleased 
with the results of citizens for the first time learning about, 
for example, license record of contractors and of real estate 
developers, and so forth. So we know it can work because we 
have seen it work.
    Chairman Lieberman. Good. That is a good example. Mr. 
Wales, do you want to get into this?
    Mr. Wales. Yes. Actually, in many cases we have heard about 
the difficulty when the web crawler comes to a form and they 
have to, instead of clicking on something that says Alabama, 
someone would have to type in Alabama and the search crawler is 
not able to figure out what to type there.
    But we actually find even in the Wikipedia context, which 
is written by human beings, that there are some websites that 
even when you type in the right thing and you submit and you 
get the information you want, you cannot link directly to that. 
And so someone who is writing something, trying to explain 
something, and they want to link to a particular statute or a 
particular regulation or a particular piece of information that 
has been published by the government, if they are not able to 
cut and paste that URL and put it into Wikipedia, then even 
with a human involved it is very frustrating. The only thing 
you can do is give someone instructions. Go to this page, type 
in this, select the third link. It can be very frustrating.
    Chairman Lieberman. That is a good point. Ms. Evans, do you 
want to respond?
    Ms. Evans. Well, all I can say is that we are very open to 
making this more collaborative. We have examples, and I would 
like to actually share one, that we are embracing this 
technology and we are using it more ourselves. The EPA was 
raised as an example here of not making information available. 
But they recently held what they called the Puget Sound 
Partnership where they went and for 36 hours they worked 
directly out there trying to figure out how to do the 
information, using the technology. What parts of their 
information were not easily accessible? Could they set up these 
pages? Could they do all that?
    We are taking those lessons learned there. Molly O'Neill 
from EPA, the CIO from EPA is sharing that now with the other 
CIOs. So that we can take these types of things and the 
frustration of the information that we are putting out there 
and then try to fix it so that we can make sure that it is 
readily available.
    Chairman Lieberman. OK. That is an encouraging example.
    As you know, Section 204 of the E-Government Act required 
the development of an official Internet portal that would be 
organized by function or topic instead of the boundaries of 
agency jurisdiction. That is USA.gov which now receives, I 
gather, almost 1.9 million visits per week.
    I wanted to ask you if you have done any work that would 
enable you to tell us how you think a user's experience is 
enhanced by using USA.gov instead of attempting to find their 
information through search engines?
    Ms. Evans. Well, the way that USA.gov is set up--GSA really 
manages this very well, at least we think they manage it very 
well. They do hold user focus groups constantly throughout the 
year to really measure the customer experience, the citizen 
experience and how to reorganize it.
    This is a good example of us and our interpretation of 
putting the context around the Federal Government information 
and then trying to give the citizen an enriched experience when 
they come and that it is the authoritative source for the 
Federal Government launching off of there, that you are going 
to authoritative sites.
    They did a lot of market research, it used to be called 
FirstGov.gov. They did research just in the name itself and 
changed it based on their market research and changed it to 
USA.gov. And just the simple name change of that increased the 
usage by 67 percent.
    So they are constantly looking at customer satisfaction. 
All of the E-Government initiatives are measuring customer 
satisfaction usage. And then as well as how we can go back and 
really deploy it and improve it and we make all of those 
metrics publicly available.
    So we set targets. Several of the initiatives may not 
necessarily be meeting their targets. But we do set the targets 
and the metrics and we do publish our actual performance 
against those metrics.
    Chairman Lieberman. Do you think enough people know? The 
numbers are pretty good obviously, but do enough people know 
and take advantage of the service that USA.gov provides?
    Ms. Evans. I think that if I had--I do it myself. So I will 
be honest--I go to Google and then I go to USA.gov when I am 
looking for specific things. But I launch into Google or Yahoo! 
or Ask.com, just like anyone else does. Because I want to see 
how my services come up.
    But I will tell you that the other benefit to having the 
government initiatives such as the Federal Internet portal and 
USA.gov was those services were available when crisis and 
things happen within the Federal Government that we have to 
mount an immediate response because the infrastructure is 
already there. USA.gov, because of its integration of the 
services, was able to provide support services to the State 
Department like answering passport questions. They can build 
out that and complement what the State Department is doing.
    As a matter of fact, they actually answer all of their 
calls now. We get a common set of answers because USA.gov is 
tied into every agency, so they handle all of the misdirected 
e-mail. So if anybody does write directly to a department or an 
agency, it is automatically routed to their set of agents so 
that they can answer the questions on a consistent basis.
    So there is a lot of integration of back end office types 
of services that we have done through these government-wide 
initiatives that when something happens like the VA situation 
where we lost that data, USA.gov and those services built up 
within 48 hours. They had the capability and they put all of 
that information out on their website. They had RSS feeds set 
up, which are automatic sign ups so that people can get the 
update of the information as we changed it. And we also had 1-
800 service so that we could answer 240,000 calls a day for the 
veterans.
    So we tried to put all of that together as an integrated 
channel so that we are providing the solutions to the citizens. 
So it is a more complicated question than does everyone know 
USA.gov?
    Chairman Lieberman. I will tell you that in preparing for 
the hearing we went to Google and typed in Federal Government, 
and USA.gov came up first in a number of listings.
    Let me go to another provision of the E-Government Act and 
see if I can start a discussion with the four of you, but I 
will start with you, Ms. Evans. In one provision of that Act, 
we require the development of a system for finding, viewing, 
and commenting on Federal regulations. This was really a step 
forward, obviously. The goal was not just transparency, but 
real accessibility to give individual citizens the opportunity 
that they would find very difficult under the previous 
technology to both see proposed regulations, gain access to 
them easily, but actually then to comment on them.
    From what I can see, while there has been progress, I have 
been disappointed that the development of Regulations.gov has 
not opened up the rulemaking process to a greater degree. CRS, 
which we referred to earlier, recently reported, ``It still 
appears that relatively few comments have been coming to the 
agencies via Regulations.gov compared to other methods of 
comment.''
    Further, in relation to what we have been discussing today, 
the data in Regulations.gov cannot be found by outside search 
engines.
    So give us your status report on how Regulations.gov is 
doing and tell us whether you agree that more needs to be done 
to facilitate public access to tracking and ability to comment 
on regulations.
    Ms. Evans. Sir, the short answer is yes, sir, more needs to 
be done on Regulations.gov.
    The other part of it is about searching and doing the 
docket systems that are back within the agencies and making 
that information available. Again, this would be one where we 
would have to partner with commercial search providers about 
the best way to make that information available because we know 
that is a limitation right now within it.
    Agencies do have to post all of the regulations, proposed 
rules at Regulations.gov, but what we wanted to do was make 
sure that the public had the availability to comment through 
multiple channels. So the comments can go directly to an 
agency, not necessarily all comments have to come through 
Regulations.gov. And that was flexibility that the agencies 
still wanted to maintain.
    Some of the things that are being looked at with 
Regulations.gov because this is really not a technology issue. 
This is really looking at how do we want the business of 
rulemaking to evolve? Some of the basic things that I have 
asked as the technology is going forward is do more comments 
make a better rule?
    Those are things that I think the way the technology is 
working and that you see through the development of functions 
like Wikipedia that there are arguments on both sides of that. 
And that is what needs to be looked at. We are in partnership, 
we jointly manage that with the OIRA Administrator, Susan 
Dudley. And these are things that she is embracing because she 
does want more transparency, she does want more openness in the 
regulation process. And so we are working with that.
    There is an ongoing study right now with the American Bar 
Association that we have been meeting with them of improvements 
and requirements, some things that we can do to Regulations.gov 
that would just make it easier to use so that more people would 
want to put comments in there, as well.
    Chairman Lieberman. Mr. Wales, would you say, based on the 
Wikepedia experience, that as a matter of policy or that we 
could conclude that more comments would make better rules?
    Mr. Wales. I think so, yes. But I think one of the 
interesting things about Wikipedia, what is innovative about 
the wiki technology is rather than just commenting, people are 
collaborating and finding ways to compromise.
    Chairman Lieberman. Yes, good point.
    Mr. Wales. And so, there are some very practical problems, 
of course, that are faced with open commenting, spammers, crazy 
people, and all kinds of bad behaviors. And you have to think 
how do you balance the desire for allowing the general public 
to comment and not to censor their remarks because maybe 
somebody does not agree with them versus well it is not 
censorship to say, links to Viagra advertisements is not really 
a comment on most regulations, anyway.
    And so, I think that these things do take very careful 
study. People can be very simplistic and say well they, should 
allow the public to comment on regulations. Well, sure. But how 
are we going to help the public to come in as a part of a 
responsible community and do that in a way that everyone finds 
useful.
    Chairman Lieberman. Good, thoughtful answer. Mr. Needham, 
any thoughts about this question about how we can improve 
basically Regulations.gov?
    Mr. Needham. Well, you are correct, that this is an example 
of an E-Government program website, among the many that I have 
referred to, that are not visible to search engine users. And 
this, I think, is more of a comment on the USA.gov discussion 
earlier, that let us say that someone is a farmer that grows 
tomatoes in Florida is not too plugged into the regulatory 
process that governs that industry and searches on Google for 
``tomatoes transport.'' If this resource were crawled and 
indexed and integrated in search engines, including USA.gov, 
this grower might be more engaged in that regulatory process, 
learn that there is, in fact, a rule that is under comment.
    And the point being made here is that not every citizen 
realizes when they are looking into their health, their 
business, education, or housing, that government provides a 
service that is relevant. And that is why it is critical that 
all of the information of the Federal Government that is public 
be in all search engines possible and not simply through 
USA.gov, where a user is consciously looking for information 
from its government.
    Chairman Lieberman. Well said. Mr. Schwartz.
    Mr. Schwartz. I want to take on two different points there, 
the first one that Mr. Needham just raised. In terms of when we 
first did our report looking at what kinds of searches were not 
coming up, it was during the polar bear comment period that the 
Interior Department was having, that had more comments than any 
other commentary.
    Chairman Lieberman. Whether the polar bear was going to be 
listed as an endangered species?
    Mr. Schwartz. Exactly. And we did some searches on that and 
you could not find that on any search engine at all. It was one 
of the first things that really got us interested in this 
issue. This was one of the best known comment periods in the 
history of the Federal Government. I mean, the most activity in 
terms of comments and you could not find it on a search engine, 
except for going through secondary parties. And part of that 
was because it was not on Regulations.gov.
    Eventually GPO sitemapped their site and then you could at 
least find it through GPO. But that is just one example. You 
know there are people that are searching for this in a way 
that, where they hear on the news that there is a comment 
period on whether the polar bear should be endangered species 
and they want to comment. They go to search on Google, they do 
not get the result that they expect.
    Regulations.gov shows that concern very acutely.
    I want to follow a little bit on Mr. Wales comments and Ms. 
Evans comments about Regulations.gov. We were hoping by this 
point that we could be at the point where we were trying out 
new technologies for regulations and public comment periods.
    Chairman Lieberman. What were you thinking of?
    Mr. Schwartz. I mean, using the wiki model. A lot of people 
would think of it as, oh you just put up a rule and then people 
go and attack it and you get both sides. But the really 
interesting thing about what happens on Wikipedia is the 
commentary pages and the notes pages, which are much more 
similar to a traditional rulemaking than you would think.
    If you go through and look through how they go about making 
determinations and people giving justifications based on facts 
and what the rules are for how that is done, I think we could 
learn a lot from just trying out new technologies. Not saying 
that it should supplant the old ways of rulemaking. But perhaps 
we can, in certain kinds of rulemakings, we can come up with a 
more collaborative discussion rather than the traditional 
conflict policy that kind of governs public comment periods 
today.
    Chairman Lieberman. That is very interesting.
    You know there is another institution around Washington 
that needs more collaboration to be effective, Congress. Maybe 
we should all form a Congressipedia.
    Another thing we do not do here, if I may continue this 
particular flight, gaining now with the welcoming our colleague 
from Hawaii. You told us the word wiki is Hawaiian for quickly, 
that one thing that we do not do enough around here is to 
legislate wikily. So anyway, I welcome Senator Akaka.
    I am going to ask one more series of questions and then I 
am going to yield to you, Senator Akaka. Thanks for being here.
    I want to go directly to you, Mr. Wales, and thank you 
again for being here, to take up one of the--I guess it is a 
criticism, a skepticism about Wikipedia, which is that 
inaccurate content can result when larger numbers of 
participants outweigh the contribution of a few experts.
    In your testimony, you said that controls or kind of 
management devices can be put in to provide--I like the term--
fine grain control to access and edit information. And I wanted 
to ask you to elaborate on that, particularly, but generally 
with regard to Wikipedia but also as it may effect 
collaborative technologies to be used by the Federal 
Government.
    Mr. Wales. Absolutely. So within Wikipedia, the software, 
the Mediawiki software that we use puts several tools into the 
hands of the community so that they can manage the quality of 
the content. Within the community, there are administrators who 
are elected from the community and they are generally chosen 
after they have proven their worth over a period of time in 
terms of being good writers, thoughtful editors, kind and 
helpful to others, the kinds of values that we look for in an 
administrator.
    And the administrators have the ability to do things like 
temporarily lock pages. We can do that in a couple of different 
ways. One of the ways that has been very successful is what we 
call to semi-protect a page, which means anyone can edit that 
page as long as they have been around and had an account at 
Wikipedia for 4 days, a very low threshold for entry into 
participation. But this really helps us in cases where a 
particular article has been highlighted in a news story or 
something like this and there are a lot of newcomers coming in 
and things like that.
    Certain articles on very controversial topics tend to be 
semi-protected pretty much all of the time. An example would be 
George W. Bush, for example.
    Chairman Lieberman. Right. Let me understand, this is 
really interesting. The administrator is empowered to 
essentially make a judgment call if the administrator thinks 
that a page may be subject to piling on or any thing else, 
because it is controversial?
    Mr. Wales. That is right. And a lot of times we try to keep 
this to be something of a cooling off period. In other words, 
something has been in the news, we will semi-protect it for a 
few days until everybody relaxes a little bit. And there are 
over a 1,000 active administrators in the English Wikipedia. 
And of course, they have conversations and discussions and 
disputes amongst themselves over whether things should be 
protected or unprotected.
    Occasionally some brave soul will say I think we should 
unprotect the George W. Bush article, they unprotect it, and 
say I will watch and make sure there is no vandalism. And 
usually about 6 hours later they are exhausted and protect it 
again and go to sleep.
    So there are some areas of high potential for pranksters 
and people like that, that end up semi-protected most of the 
time.
    We also have the ability to block IP numbers. So if there 
is some form of misbehavior and where it is coming from--the 
typical case would be a high school, a parliament building, 
this sort of thing. That's a joke, actually, although it has 
happened.
    We will see some sort of juvenile behavior. And normally 
what we do in a case like that, is we just simply block that IP 
number from editing Wikipedia for 24 hours or so. Hopefully 
that will just calm them down. So that is another sort of tool 
in our pack.
    We have things like recent changes, so there are people who 
monitor every change that is coming in. Individual users have 
personalized watch lists. So if you are a particular expert on 
birds, for example. I met a scientist at Cornell University who 
is an ornithologist. He monitors a lot of the bird articles. He 
does not have time to do it personally everyday, but about once 
a week he said he comes in and checks out a lot of the bird 
articles. And he can quickly look at the change, just the 
change in the article. Rather than him to reread the whole 
thing from scratch, he can quickly see what has changed since 
the last time he has been there to make sure it seems suitable 
to him.
    So all of those kinds of tools are important, but probably 
one of the most important tools of all is that the entire 
history if every article is kept in the database with very rare 
exceptions. Occasionally, we completely delete things from the 
database, privacy violations or other legal reasons. But 
typically if it is simply a bad version of an article or 
something like that, the old versions are there. And so if 
somebody comes in and begins to damage an article, it is 
typically one click for anyone to go back in and save the 
previous version as the current version. And so it is hard to 
do any damage at Wikipedia. Whenever you come in and make a 
change, you are actually just creating a new version. And if 
you have done some harm, someone can quickly come behind you 
and fix it.
    Chairman Lieberman. Very interesting. I presume though, it 
is a different kind of activity that you would say some of 
those methods you have for protecting the integrity of the 
system are also relevant for collaborative technologies used by 
the Federal Government?
    Mr. Wales. Absolutely. Some of these techniques are not 
necessarily as useful in internal facing wikis. If you have an 
internal wiki and everybody who is editing it is logged in and 
they are an employee, typically you do not need to block them 
from editing. You fire them or whatever you need to do to tell 
them to stop misbehaving.
    But other of the tools, for example, the history. You can 
easily have people who disagree and someone will say you made 
these edits to this article, but I do not feel that it really 
improved it. I am going to go back to the previous version and 
then let us go to the talk page and hash this out.
    So these kinds of tools are applicable for internal wikis 
and external, but a lot of the concepts may be valuable outside 
even the wiki framework. The idea of understanding that if you 
can generate a thoughtful community, you can have that 
community do a lot of the policing that otherwise it would not 
be cost effective to do.
    A similar example would be Craig's List. People post 
advertisements there, free advertisements. And the staff at 
Craig's List is really too small to really supervise and 
monitor everything. But their community can simply, if you see 
something that is spam or is somehow inappropriate, they can 
simply flag it and if it gets flagged a certain number of times 
it just disappears. Overall, this does a pretty good job. And 
those are the kinds of techniques that I think we are going to 
be exploring in the industry over the next few years.
    Chairman Lieberman. That is fascinating and encouraging 
because there is a kind of confidence there based on some 
experience you have had that in the end the better part of 
human nature prevails.
    Mr. Wales. Well, one of the classic examples I always give 
is to imagine that you are going to design a restaurant. And 
you think to yourself in this restaurant we are going to be 
serving steak. And since we are serving steak, the customers 
will have access to knives. And when people have access to 
knives, they might stab each other. So to design our 
restaurant, we are going to put everybody inside a cage.
    Well, this makes a bad society. That is not the kind of 
open society we want to live in. But unfortunately, when people 
are engaging in web design, this is often exactly the kind of 
thinking that they have. They think of all of the bad things 
that people might do and design everything around those worst 
case scenarios rather than saying, oh you know what, let us 
keep things as open as we can and wait until we see the bad 
behavior and then think about what to do about it. We call the 
police. We get an ambulance. Or in a digital context we simply 
change it back to the old version.
    Chairman Lieberman. I am going to stop now and yield to 
Senator Akaka. Thanks again for being here.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
holding this important hearing on implementation and 
reauthorization of the E-Government Act. I have been a strong 
advocate for transparency in government as well as for privacy 
for all Americans. We need to continue to keep emphasizing 
privacy and expanding access to appropriate government 
information.
    That is where I come from. And I want to thank the Chairman 
for what he is doing along these lines and working hard at it.
    I would like to ask the first question to Karen Evans from 
OMB, and tell you that making government information more 
available to the public by posting it online is important for 
government transparency. However, I am concerned that 
information in Federal forms posted online are often written 
in, let me put it this way, bureaucratic language that is 
difficult for many Americans to understand. This can be 
especially burdensome for those helping people to access the 
information online, especially librarians.
    What steps is OMB taking to ensure that government 
information posted online is clear, well organized, and readily 
understandable?
    Ms. Evans. Well, sir, it is good to see you again, thank 
you.
    Senator Akaka. Thank you for being here.
    Ms. Evans. I believe that our current policies that we have 
issued dealing with the implementation of the E-Government Act 
speaks to that very issue about talking about having 
information out there accessible, easily to find, and easily 
understandable. How the agencies have actually gone about that 
and executed that is what we are discussing more today.
    I believe that the Federal CIO Council, which was also 
codified through this Act, has a leadership role in this as 
well as the Web forum that we have established through USA.gov, 
that they then work on best practices. They continuously put 
together toolkits for content managers for agencies to put that 
information out. But based on many of these things that my 
colleagues have said today, I believe we will have to go back 
and revisit many of those to see if we really are doing it in 
the best way that we can, or should they be updated so that 
things are going out in a way that citizens understand them and 
can easily find them.
    Senator Akaka. I would like to follow up by asking Mr. 
Wales about your thoughts on this kind of an organization. I 
was interested to hear the Chairman use the word ``wiki.'' And 
as you know, in Hawaiian that means to hurry up or do it 
quickly. And when I saw pedia, I was thinking of walking fast. 
But it is along the line of encyclopedias and of course, the 
whole thing comes to me as being important through knowledge 
and facts and done in such a way where people can understand 
them and absorb them and use them for their benefits.
    So in this case, in this question that I asked Ms. Evans, I 
just wanted your thoughts about that.
    Mr. Wales. Well, I think that one of the interesting things 
that we see is that the communities who come together, one of 
the things they really prize is making information available to 
people in a way that they can understand. And that is something 
that often specialists, or bureaucrats who are often 
specialists of some kind, really can sometimes struggle with. 
Not intentionally, but just because they live in a certain 
world and speak a certain language and it is very hard for them 
to really remember and get at, that language is very hard for 
other people to understand.
    This is one of the areas that I would recommend that the 
Federal Government agencies consider doing some public facing 
wiki project experiments where perhaps what the general public 
could do is come in and help explain things in more plain 
language. Perhaps with the assistance of staff at the agencies 
to monitor the quality and things like that. But this is a 
potentially fabulous way of getting at things, particularly in 
the areas where there has not traditionally been really funding 
available to explain some arcane regulations to the general 
public because the regulations are not meant to apply 
necessarily to the general public. But they may have an 
interest in knowing and a right to know.
    So I think there is a lot of potential here.
    Senator Akaka. Well, thank you. I want to thank both of you 
for those answers.
    Ms. Evans. I would like to add one thing to this.
    Senator Akaka. Yes.
    Ms. Evans. So, as we are talking about how to do this, the 
government, we are ready to roll out the new website dealing 
with the Transparency Act. And there is going to be an event 
tomorrow. Included in that is the wiki technology, the 
collaborative technology to do exactly the types of activities 
that you are talking about, because the Federal Financial 
Accountability Transparency Act has a very specific requirement 
about having citizens interact and continuously take feedback 
back on how the website has developed, how we do these 
requirements, how information is available, and how we are 
putting all this information out.
    So we have embraced this. It is going to be included in 
this roll out. We are going to be using this collaborative 
technology to really take a look at how we have interpreted the 
law, how we are displaying it, and then take the feedback back 
on future requirements, future enhancements. And also the 
actual text around it based on the issues that you are now 
highlighting. Because as you said, we write in a certain way 
which may have absolutely no meaning to the people who are 
looking at the data.
    So it will be there. We are going to be actively taking 
this information and requirements and we are hoping that they 
will define and refine their own requirements going forward.
    Senator Akaka. Well, I want you to know that this issue is 
especially important to me. I recently introduced the Plain 
Language in Government Communications Act, which is S. 2291, 
along with Senators Levin, Carper, McCaskill, and Obama, 
requiring that agencies write information released to the 
public in clearer and more understandable manner. So this is 
why I am really interested in this issue.
    Mr. Chairman, my time has expired.
    Chairman Lieberman. Do you have any more questions, Senator 
Akaka?
    Senator Akaka. I do.
    Chairman Lieberman. Maybe I will do a round and I then will 
come back to you. I thank you. And this time I will go by the 
clock, now that you are here.
    This is just not the Governmental Affairs Committee, we are 
now, over the last few years, the Homeland Security Committee 
so we have a special responsibility with regard to protecting 
the homeland both from terrorist attack and from natural 
disasters.
    One of the remarkable uses, and this is where Wikipedia 
becomes itself a kind of public service beyond the information 
part of it. I gather, or I have been told, that during the 
recent California wildfires, Wikipedia became for many people 
the place of choice for the most recent information about the 
movement of the wildfires. People who were living there were 
following it.
    Intellipedia, which we mentioned earlier, was used to allow 
various agencies to file status updates and communicate with 
each other during those fires. I have heard, and maybe Mr. 
Needham can confirm this, that when Steve Fossett, who I was 
privileged to know, the great adventurer, was missing that a 
group of his friends formed their own site and divided the 
enormous space in which they thought his plane had gone down. 
And I believe they must have used Google Earth, and they each 
took a section of it and searched it. Really an unbelievable 
capacity.
    In fact they found some missing planes and things that had 
been missing for years, but they unfortunately did not find his 
plane.
    So I wanted to start with you, Mr. Wales, and ask what 
lessons, what kind of opportunities can we draw from these 
experiences which can perhaps help us. The nice thing about 
what you have done is that it self-generates, so it does not 
require a government mandate. But sometimes it may require a 
government incentive.
    So is there anything you can think about, and I will ask 
the other panelists their thoughts, about how we may bring this 
potential use of Wikipedia, even Google Earth and others--or 
just awareness of collaborative possibilities--to bear to both 
help us prevent and then particularly respond to disasters, 
both natural and human.
    Mr. Wales. So this tendency of Wikipedia to do a really 
good job of covering this sort of major crisis events is 
something that we first saw on September 11, 2001, actually. We 
were a very young project at that time and on September 11, 
2001, we still had very few articles about anything, frankly. 
You could turn on the television and there was not much to be 
said. So all you saw was the video playing over and over and 
over and over, the planes crashing into the towers.
    Well, at Wikipedia the volunteers began frantically working 
to fill in all of the kinds of background information that 
people might want to know. So we did not have an article that 
morning about the World Trade Center, so quickly somebody 
started the article. There would be articles created that day 
about things like the architect who designed it, an article 
about the Pentagon, about all of the airlines that were in 
someway involved that day. All of that kind of background 
information.
    We were still a very young project at the time. Nowadays we 
see that happen in a much more broad way, Hurricane Katrina, 
the tsunami, and the recent wildfires. People get very active 
in participating. And one of the great powers of this model is 
that we are able to bring to bear more individual minds to the 
problem than almost anybody else. So we can have a couple 
hundred people who are scouring through the web and who also 
have their own personal prior knowledge of where to find 
different kinds of information and begin pulling that 
information together in a coherent framework so that people can 
access it and understand it.
    In general, if we want to make sure that the process 
proceeds efficiently, basically all of the kinds of initiatives 
that we have been talking about today, making sure that when 
our volunteers are able to use Google or Yahoo! to find a piece 
of information on a Federal Government website they are able to 
then highlight and amplify the volume of the signal there for 
the general public so that if there is something important 
going and FEMA issues a statement, that statement will first be 
findable in the search engines but it will also be immediately 
available for the volunteers to analyze and integrate into the 
Wikipedia article.
    Chairman Lieberman. Ms. Evans, let me ask you, and I had 
not thought about it before preparing for this hearing to ask 
DHS or FEMA, whether in crisis situations today those Federal 
agencies are attempting to create sites on which information 
can be shared, particularly from within the affected areas. And 
whether you think they should.
    Ms. Evans. Well, we do have two initiatives. One in 
particular is disaster management. It is not shared in an open 
community to the extent that the Wikipedia communities of 
interest, that type of approach is set forth. But it is shared 
within the first responder community based on a lot of the 
things that we are talking about. And that information is 
posted out there, it is a tool set. Could it be more 
collaborative? Should it be more open to the public? That is 
what we provide, the environment, so that the local communities 
can use that information as it is being posted by the Federal 
agencies to be able to respond so that they are using the same 
Geographic Information System (GIS). They are all using the 
same type of information to be able to respond.
    But that is an initiative that is poised and ready to move 
to the next evolution of services. All of these are 
foundational. They have the basic and what they really needed 
to do was break down the silos of those communities working 
together. It is not so much the technology. It is how that 
community works together and responds between the fire 
department, the police department, and those guys.
    And so a lot of what our initiatives have done have brought 
those communities of interest together. This now allows us to 
take it to the next level, directly involve the citizenry, 
where it needs to be and how it should be involved. And the 
technology will allow us to do that.
    Chairman Lieberman. I hope you will do that because, in the 
most really remarkable way that could not have been foreseen by 
earlier generations, the Internet capabilities allow us, as you 
all know, to create community activity at a level which was 
unheard of, and in that sense could build a sense of community 
where often today in actual geographic communities it does not 
exist.
    Ms. Evans. Right.
    Chairman Lieberman. With Senator Akaka's permission, I am 
going to let Mr. Needham get into this. I am over my time.
    Mr. Needham. Sure. I just want to add to the observations 
made here and give two examples of what we are describing here 
of the use of these tools in the context of an emergency.
    With the recent wildfires in Southern California, a public 
broadcaster in the area in San Diego used the Google Map 
service to provide information to the public aggregated from 
multiple emergency management agencies so that a user could go 
straight to Google Maps, not suffer from the lag times one 
sometimes experiences with a government website which does not 
have the capacity that Google can put behind its service. And 
there citizens found information on evacuation routes, on the 
reach of the wildfires, the areas at risk, and so forth.
    A second example I will give, which is relevant to web 
search which is what I have come here today to talk about. 
Recently there was an earthquake in the Bay Area, the largest 
in the last 20 years. And I happened to be there with my 
family, that recently moved to California. And we were 
obviously unnerved to feel ourselves shaking for the first time 
in an earthquake. So I grabbed my mobile phone and searched for 
``earthquake California.'' The first search result was a U.S. 
Geological Survey website, where I was able to view in realtime 
there the gravity of the earthquake, see a visualization of its 
reach and know that we were, in fact, safe and we could proceed 
home and so forth.
    These are examples of tools that are built on government 
information that are in the hands of citizens in a way that we 
did not have before.
    Chairman Lieberman. That is a great example. Thanks. 
Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman. I would like to ask 
Mr. Schwartz, overall, what is your opinion regarding how well 
agencies are fulfilling their requirements of the E-Government 
Act? Especially in relation to privacy provisions?
    Mr. Schwartz. Thank you, Senator Akaka.
    This Section 208 of the Act is the main privacy section. 
And for the most part, it has really been a mixed picture from 
the agencies. We have seen some agencies really do 
exceptionally well in creating what are really the best Privacy 
Impact Assessments in the world. The Department of Homeland 
Security actually has a site dedicated to promoting how Privacy 
Impact Assessments should be done within the agency. They have 
a large team of privacy professionals that can work with 
different parts of the agencies.
    But yet we have other agencies that have not implemented it 
well at all. We heard the latest percentages from Ms. Evans, 
and I actually missed the numbers, but there are still some 
that are not implementing PIAs when they are supposed to be, 
which I think should be the biggest concern.
    But there is also some agencies that are only doing them in 
a cursory fashion. For example, my organization wrote to 
Secretary Rice about the State Department's passport program 
and why, for their Privacy Impact Assessment, they really only 
had a half of a page on Privacy Impact Assessment, publicly 
available for citizens for what should be one of the most 
privacy sensitive documents that we have.
    And we never received a full answer as to why we do not 
have a greater Privacy Impact Assessment trying to figure 
exactly how information is being transferred using the new 
electronic chip in the passport, etc. We have gone over some of 
those issues and I think we feel that some of the security 
measures that they have taken are good measures. But in the 
long run there should be publicly available information about 
what kind of steps the State Department has taken to show this 
kind of a balance.
    And so, even among those that are doing PIAs, we are seeing 
that they are very poorly done.
    I think a part of that is a larger, gets to the larger 
issue which is we do not have--some agencies have a good 
privacy program in them, like DHS, mostly because it was 
written into the Department of Homeland Security Act. When 
Senator Lieberman introduced it originally, it had a privacy 
provision in it. You had a good chief privacy officer who came 
into the department at the time that it was formed.
    We have not seen that in other agencies. And because we do 
not have that kind of leadership within agencies, we have not 
been able to see a good program put into place. And it also 
means we are not even seeing the letter of the law of the 
Privacy Act put into place. And the Privacy Act, over time, has 
weakened because of the way technology has formed.
    We urge the Congress to take a larger, a broader look at 
some of the issues around privacy and the Privacy Act and we 
hope that this Committee, which has jurisdiction over the 
Privacy Act, will do that.
    Senator Akaka. Well, thank you for that because we would 
like to receive recommendations as to how we can bring this 
about with all agencies. So thank you for that.
    Ms. Evans, GAO found that agencies routinely collect 
information about individuals from commercial sources, but 
often do not perform Privacy Impact Assessments. However, 
according to OMB's guidance, agencies should be performing PIAs 
when they make systematic use of commercial sources.
    What is OMB doing to ensure that the use of these 
commercial sources is addressed in PIAs and other evaluations?
    Ms. Evans. Well, first, we did issue a policy memo back in 
February 2005 where all agencies have to have the designation 
of a senior agency official for privacy. What we have done is 
last year we have incorporated annual reporting now into the 
overall annual report that we submit to Congress for the 
Federal Information Security Management Act in March. So last 
year was the first year that we actually provided a report on 
government-wide privacy aspects which included PIAs and 
agencies conducting PIAs, doing the PIAs, and the systems that 
were appropriate.
    To get to Mr Schwartz's issue and your issue, sir, what we 
have added this year which we will be reporting for going 
forward is the quality of that program. We have asked the 
inspector generals to review the process that the agency uses 
internally to determine and assess the quality of the PIA 
itself. Because we believe that represents the whole thing from 
start to finish: How you decide what information you are going 
to use, whether you publish it, whether you are collecting it 
in the Systems of Records and Notice, how you publish that, how 
you put it out, and then how you then take it and use it in an 
IT system.
    So when we submit the report this year in March, we will 
also have additional statistics about the quality that each 
agency has in that process. Then we will be going back to work 
individually with each of those agencies to improve that 
quality because the Administration is very committed to the 
privacy aspects of the information that we collect and use.
    Senator Akaka. Thank you. Mr. Chairman, my time has 
expired.
    Chairman Lieberman. Thanks very much, Senator Akaka. 
Senator Carper, welcome.
    Senator Carper. Thank you.
    Chairman Lieberman. We have had a very interesting morning 
and we are glad you are here.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Now Mr. Wales, just a quick question, if 
you will. What caused you to go out and form the business 
enterprise that you have and that has been so successful? What 
was the spark that caused you to go out and create Wikipedia?
    I do not mean to interrupt. My son is coming from his high 
school Charter High School of Wilmington, Delaware, and they 
are going to be here tomorrow with the Young Democrats and 
Young Republicans coming on the same bus from Wilmington, 
Delaware. You can sit on either side of the aisle.
    Chairman Lieberman. That should be a very collaborative 
experience.
    Senator Carper. It promises to be that. And they have the 
opportunity to pick among three hearings to attend for 45 
minutes or so tomorrow morning. And I know they would all love 
to be here. They talk about Wikipedia a lot.
    Mr. Wales. Oh, yes.
    So the original inspiration for Wikipedia came about 2 
years before I created Wikipedia. I was watching the growth of 
the open source software movement, Free Software, and 
recognized that programmers were coming together from all over 
the world to collaborate on creating software in a new way. And 
like a lot of people, when I first saw this happening I thought 
well this is kind of fun, a hobby, but you know it really 
cannot work.
    But very quickly we were seeing that GNU, Linux, Apache, 
PHP, PERL--all of the software that really runs the web 
underneath was all collaboratively written, typically by 
volunteers using a new model of sharing, and using licenses 
that allow other people to take your work, modify it, reuse it, 
and so forth.
    And so, I realized that this model of collaboration was 
working and that it was something that could be very big in the 
future.
    It is natural that this started with programmers because if 
programmers need tools to collaborate to share their code with 
each other, they can create their own tools. So for example, 
they have a program called CVS, which they use to check in and 
out changes of code so that multiple people can be working on 
the same project at the same time. But for the rest of us the 
only way we could really collaborate was by e-mailing around 
word processing documents or whatever. Which if you have ever 
sent out a document to eight people and asked for revisions and 
you get eight different versions back, it is a nightmare.
    And so I realized that what we really wanted to see was the 
creation of tools for people to be able to effectively 
collaborate.
    My first version of this, I had the idea that there should 
be a free encyclopedia. That seemed like an obvious thing. I 
was in a panic actually when I had the idea that I thought 
somebody else would do it first. But I designed it in 
collaboration with a guy that I had hired to help me. It was a 
very top-down approach, very old fashioned, and it failed. It 
did not really take advantage of the possibilities of the new 
medium and for volunteers a very academic top-down approach was 
just not very fun.
    So we discovered the wiki editing technology which had been 
around for quite some time and applied it to the encyclopedia 
and it just began taking off almost immediately.
    Senator Carper. You may have already said this, but the 
lessons that you learned in that endeavor, how might we apply 
them effectively here?
    Mr. Wales. I think there are a few basic principles. One is 
to recognize that most people are basically good, and so it 
actually is possible to have a fairly open system with fairly 
light controls that allows the community to police themselves. 
And you can actually get really good quality work in that way.
    I always compare it to--the management of a community 
website is very similar to good municipal government. You do 
not want a police state where people can be kicked out of the 
project for the slightest hint of dissent. At the same time, 
you do not want complete anarchy where people are getting 
mugged in the park and that sort of thing. So you have to find 
that balance between openness and control that really puts the 
power into the hands of the community.
    And I think that those kinds of ideas are very applicable, 
clearly to a democratic government in a free society. One of 
the things I think we should be experimenting with is agencies 
experimenting with doing public facing wikis to try to get the 
engagement of the public in various aspects of their work.
    Senator Carper. Thanks very much.
    Ms. Evans, it is nice to see you again. As I am sure you 
recall you were here, a couple of months ago, discussing at-
risk IT investments.
    In your testimony today, I think you stated that the E-
Government Act authorizes Federal IT workforce development 
programs.
    How have agencies progressed since 2002, in closing and 
identifying IT workforce gaps?
    Ms. Evans. As required by the E-Government Act and also the 
Clinger-Cohen Act, we have identified the gaps. The CIO Council 
takes a leadership role in that. We actually have an updated IT 
workforce assessment summary that we will be releasing shortly 
and we--this is voluntarily response rate. And so we had a 40 
percent response rate.
    We have identified the same gaps going forward. The 
agencies have plans in place to close those gaps and that is 
now being monitored through the President's Management Agenda. 
We need to improve more about what we are doing and actually 
have better metrics to clearly demonstrate that we actually 
have closed the gaps and we are working with the agencies now 
on that, as well as the Office of Personnel Management so that 
we will have clear metrics so we can hold ourselves accountable 
for in that area.
    Senator Carper. All right. And how do yo plan to continue 
closing these IT workforce gaps in the future?
    Ms. Evans. There is a couple of things that we have done, 
besides the actual plans and the hiring. The Council itself has 
the biggest gap in making sure that we have the workforce, that 
we hire the workforce, recruit them, and then bring them in, 
and have the training program.
    So the CIO Council itself has worked on several recruitment 
tools, videos. We have also held online hiring sessions where 
we have used some of our special authorities so that we could 
then take those and work with OPM and then immediately hire the 
folks through online types of registration, making use of the 
technology so that we can attract the workers.
    But then what the challenge that we have is we have to make 
sure that our workplace retains the workers. The new workforce 
coming in, when you start looking at the demographics, are used 
to certain tool sets. And we have to make sure that the 
government provides those tool sets so that we can retain them 
once they are here.
    Senator Carper. How do you measure success in this regard?
    Ms. Evans. Currently, right now the one metric is the 
hiring metric we have. And then we are also tracking the 
project managers through the framework that the CIO Council has 
released about the skill levels associated with that. But we 
need to have better metrics and we are working on developing 
those metrics, especially in the area of cyber security, 
enterprise architects, and solution architects.
    Senator Carper. Good. Thanks for being here today. In fact, 
all of you, thank you for being here today.
    Chairman Lieberman. Thanks, Senator Carper. Senator Akaka, 
if you have a question or two more, we would welcome them.
    Senator Akaka. Thank you so much, Mr. Chairman. Ms. Evans, 
every government website currently contains a list of 
individual parts of the site that should not be made searchable 
by services such as Google Search or Microsoft Live Search. 
When OMB implemented USASearch.gov, it just contracted with 
Microsoft Search at the time, meaning that the same search 
restrictions for commercial services were also in this 
government search.
    The E-Government Reauthorization Act calls for enhanced 
access to search government websites by commercial, let me say, 
search engines which would evaluate and make government search 
engines more effective, as well. USASearch.gov was meant to be 
a single point to search all government websites. However, it 
is largely based on the same technology in use by other 
commercial search engines such as Google and subject to the 
same limitations as have been discussed here today.
    When OMB set up USASearch.gov, why did it not ask agencies 
to make improvements to their searchability at that time?
    Ms. Evans. Well, sir, we believe based on the policy that 
we did issue as required by the E-Government Act that we have 
asked agencies to do that and that we have provided the 
framework and the policy in place for them to do it. I believe 
the way that the reauthorization language has been written, 
this will give us the mechanism to follow up and make sure that 
there is accountability for that. It is one thing to have a 
policy. It is another thing to have an agency implement it and 
then also report to you on an annual basis the results, ``like 
a scoring'' of what they are doing.
    And so what we are going to do through the Council and 
through the web communities that we have, is make sure that we 
take advantage of things such as the sitemap standard and 
looking at that information and making a very conscious 
decision that yes, all of this has to be available. And if they 
make a decision that maybe it should not be available, then 
maybe it should not be available to the public all together. 
Maybe they need to pull that down and there is a reason why.
    But the agencies have to go through this and look at it. 
And I think the way that we have written it that you guys are 
doing this, our policies will accommodate for the language that 
is in there and hold the agencies accountable for that in a 
very transparent way.
    Senator Akaka. Did you need this reauthorization to 
implement improvements?
    Ms. Evans. No, sir. But I would say that--because we always 
are evaluating our policy. But I would say with the 
reauthorization it signals to the Federal agencies, and not 
just to the agencies, but globally, because we are looked at 
globally, across the board, about all of the different types of 
services. We do meet quarterly with all of our counterparts in 
several other countries. And what this will signify to them is 
the commitment that the government has, both the Executive 
Branch and the Legislative Branch, on the use of technology in 
a responsible way to ensure that government information and 
government services are available.
    We could have done it through our own administrative 
authorities, but this is something that I think is important to 
you as well as us. And so the reauthorization of that Act 
signifies that to the global community, as well.
    Mr. Needham. Senator, if I may comment.
    Senator Akaka. Mr. Needham, yes.
    Mr. Needham. This has been our experience, in fact, in 
communicating with dozens of Federal agencies that they 
understand the value of search, the importance of search, and 
by and large all have complied with the E-Government Act of 
2002 in providing a search tool on their website or a site 
search tool.
    But we do not find as much awareness or focus on web 
search, the step by which a citizen gets to that website to 
begin with. And one factor we have identified is a lack of 
clear guidance or directive from OMB. And with this legislation 
that has been proposed, we think that will close that gap and 
the agencies will understand the need to prioritize web search 
and ensure that whether that user or that citizen is searching 
on Google, Yahoo!, Microsoft Live Search, Ask.com or USA.gov, 
the example that you noted, they will find the appropriate 
Federal agency website.
    Senator Akaka. Well, thank you very much for that, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Akaka. Senator Carper.
    Senator Carper. If I could, a question. It is for Mr. 
Schwartz, but also I am going to ask our other witnesses to 
respond to it with their thoughts.
    But to Mr. Schwartz, I was not here when you did this, but 
I am told by my staff and that you brought up some very good 
points in your testimony about privacy issues. And we all hear 
too often of breaches that have occurred in certain segments of 
our government and constituents are at risk, whether it is 
identity theft, or having some other sensitive information, 
even medical information and that kind of thing publicly 
disclosed.
    And while OMB has issued a series of memoranda to address 
this issue, it is imperative that personal information trusted 
to the government remain secure. And I would ask for you, and 
for the other three witnesses today, to just share with us what 
you believe to be maybe the top three things that ought to be 
done to protect our personal information.
    Mr. Schwartz. Thank you, Senator Carper. I think this is an 
issue that this Committee could look into in more detail, as I 
said earlier. One of the main things is looking back at the 
Privacy Act. Well, let me first say that the Committee has 
already taken the step of passing the E-Government 
Reauthorization Act, which includes a privacy provision, which 
would create best practices for PIAs. I was glad to hear Ms. 
Evans cite that they are working on quality of the PIAs. That 
is the first step. Now they can look across those and see what 
they consider to be high quality PIAs, these are Privacy Impact 
Assessments, and create a best practice based on what the 
government is doing today, the agencies that are doing a good 
job today.
    So I think that is one area that this Committee has already 
taken a step. I hope that will pass and so that when the 
agencies have to cooperate with OMB, they see that it has 
Congressional approval as well, in terms of those best 
practices, especially moving into a new Administration after 
next year.
    The second area that I would point to is looking at the 
Privacy Act. In particular, one thing that we have pointed to 
are some of the definitions in the Privacy Act. I do not want 
to get too technical, but there is the main definition of how 
you figure out what is covered under the Privacy Act of 1974. 
It is called a System of Records. And the idea there is that if 
you, as an agency, gather records together based on whether it 
is personal information or not, and you have that information 
and you actually search on those terms, then it is a System of 
Records.
    If you just gather the information together and keep it in 
a place, but you do not go in a search specifically on name or 
specifically on Social Security number, it may not be a System 
of Records under the law.
    This is because the law was written in 1974 when we had 
centralized databases and it was assumed you would always be 
searching by a Social Security number or a name, right, and not 
that you could search any of the fields in the database.
    Some agencies have interpreted the law very literally, 
whereas some agencies are taking the broader approach of saying 
that this was meant to apply to information that is collected 
in a single place.
    That, to me, is one area where, especially in the web age 
where you can search information across various different 
resources at the same time, so it might not even be in the same 
central place. We need to go back and look at some of those 
definitions like that.
    Another example, just because you gave me three, is the 
definition of routine use, where agencies can say beforehand 
that they are going to use information, share it with other 
agencies, and make very broad exceptions as to how they are 
going to share information, as long as they do it in advance. 
There is this loophole that is called the routine use 
exemption, that basically has no limits. As long as you say you 
are going to use it in advance, you can share that information 
in advance.
    I think we need to go back and look at that in a records 
context and say, maybe we should have some limits to what kinds 
of routine uses there should be.
    Senator Carper. Thank you. Mr. Wales.
    Mr. Wales. Well, I am not really an expert on what the 
Federal Government is doing about privacy. I just wanted to 
make one general point, which is that technology has impacted 
privacy in sometimes surprising way, so that information that 
people felt comfortable being public when it meant that you 
could go down to the courthouse and look it up, feels very 
different when you can type in your name in a search engine and 
anyone can find it just like that.
    An example in Florida, this is not our Federal Government 
example, but a State example: All of the tax records for homes, 
which have been public, I suppose forever, including diagrams 
and now satellite photos of people's houses, is all available 
just by searching on people's names in the local county 
assessor's office.
    A lot of people find that very unnerving even though it is 
the same information that has always been available publicly, 
except it is a little different if you actually had to go down 
to the courthouse to get it.
    And so I think in many ways we are going to have to be not 
just thinking about how do we make sure the government is 
adhering to some privacy standards but actually rethinking what 
kinds of things people consider private or not and may need a 
philosophical approach to that question.
    Senator Carper. Good. Thank you. Mr. Needham.
    Mr. Needham. So the one recommendation that we would offer 
at Google is the same that I have been articulating this 
morning, which is that Sitemap Protocol or Sitemaps Technology 
not only enables an agency to tell search engines come and 
index this information. It can also say stop indexing this 
information. Simply by withdrawing an item from that sitemap, 
that is the message to each search engine to remove that 
record.
    So that if there was a record found in a database that 
contained PII, the agency can swiftly remove it from search 
engines through this technology.
    Senator Carper. All right. Thanks. Ms. Evans, the closing 
word?
    Ms. Evans. Well, because you asked about the top three 
issues and I think that what we have changed, and Mr. Wales has 
really highlighted this, is how we used to traditionally 
collect information, the way we would announce it through the 
Federal Register, and have looked at that need for the 
information. The Administration has really looked at that, 
issued the policy about the safeguarding but what is key to 
that is, why are we collecting the information? Is it really 
necessary for us to have that information?
    For example, Social Security numbers. We are actually 
asking agencies to really go back, look at that. Why are you 
collecting that information? Do you really need to have that? 
Or was it convenient for the programmers, as a unique 
identifier, to tie all of these systems together? And couldn't 
we just randomly generate a unique identifier and crosswalk 
these?
    I mean technology has evolved, for some of the reasons why 
we were collecting certain data in order to make it easier. Now 
because technology is now gone to the next evolution, some of 
those business practices we do not need to do anymore.
    And so we really have been focusing on the agencies, really 
having them go back and look at their information holdings. 
That is the purpose of the policy in which was M-0716. We are 
holding agencies accountable for it. It is a fairly 
comprehensive policy. And if you track the scorecard and the 
progress that the agencies make, last quarter we took every 
agency down because they did not meet all of the requirements 
that were in there. And part of that is reviewing all of the 
information holdings. How do they use that and then how are 
they protecting that?
    Senator Carper. OK. My thanks to all of you. Thanks for 
being here and for your responses.
    Chairman Lieberman. Thanks, Senator Carper. That was a 
important line of questioning. I appreciate it.
    I want to thank all of the witnesses. This really has been 
an excellent and, for me, exciting hearing. I am grateful for 
the progress that we have made in the first 5 years into the E-
Government Act. We obviously have more to do.
    And the reason this hearing is exciting is because of the 
dynamism of this part of our lives and the tremendous potential 
for government. Obviously it effects us in so many other ways, 
but in this case we are focused on government.
    So we want to continue to work with you or push you 
occasionally. I hope you will come to us if you need help, Ms. 
Evans.
    Ms. Evans. Yes, sir.
    Chairman Lieberman. We are advocates for support because we 
really believe in what you are doing. I must say, I talked when 
I was speaking about you, Mr. Wales, that you are a line that 
goes back into America to Franklin and Jefferson of innovators. 
Much younger, of course.
    But this hearing inspires me to put into the record one of 
my favorite expressions of the American spirit from American 
literature, which is Mark Twain's depiction of Huckleberry Finn 
and Jim on that raft on the Mississippi. And every time they 
approach the bend in the river, though they did not know what 
was on the other side, they never feared it. They always had 
this tremendous sense of excitement. And also confidence that 
they could meet whatever was there and, in some sense, turn it 
to their benefit.
    And I think that it exactly--I suppose I cannot resist a 
certain amount of chauvinism in expressing pride that it was 
the Defense Advanced Research Projects Agency (DARPA), a 
Federal agency that actually created this modern American 
river, global river of the Internet. But that you all are 
really helping us to have that same kind of spirit of adventure 
and confidence and excitement as we approach the various bends 
in the river that human experience makes sure we will 
constantly approach.
    And so for our part, we want to make sure that we are doing 
everything we can to see that the Federal Government is making 
maximal use of these technologies. I thank you very much.
    The record of the hearing will stay open for 15 days in 
case you want to add anything to your testimony and in case 
Members of the Committee, particularly those who could not, for 
reasons of schedule, be here this morning, and want to ask you 
any questions in writing.
    But I thank you very much for the time you took to be here, 
for what you are doing everyday, and for what you have 
contributed to our attempt to drive this exciting sense of 
opportunity through the Federal Government.
    The hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR COLLINS
    Offering Federal services and information via the Internet gives 
people immensely valuable tools for their personal, business, and civic 
lives.
    Anyone with access to a computer and the Web can visit the Federal 
portal USA.gov and be only a few mouse clicks away from printable tax 
forms, information on home heating assistance, an e-mail link to their 
Senator, testimony on legislation of interest, museum collections, data 
on Civil War ancestors, advice for small business, recipes for low-cost 
nutrition, energy-saving tips, instructional videos, and thousands of 
other topics.
    These ``E-Government'' offerings not only provide near-
instantaneous information and services to citizens, but also save the 
Federal Government and individual citizens money that would otherwise 
be spent on phone or mail queries or in printing and delivering 
physical documents.
    Online resources also allow Federal employees to book travel, 
enroll in and modify selections in their benefit programs, receive 
training, and perform other tasks quickly and efficiently. In addition, 
they are powerful ``force multipliers'' for government employees who 
need to research laws and regulations, respond to constituent 
inquiries, or collaborate with workers in other agencies.
    Our intelligence community offers a good example of Internet 
technology at work. The three classified, collaborative sites that 
constitute the ``Intellipedia'' promote intelligence sharing and 
collaboration on important national security issues.
    The World Wide Web--the collection of publicly accessible, 
hyperlinked texts and graphics that reside on servers connected to the 
Internet--is less than 20 years old, and is still developing. The 
Federal commitment to the Web, formalized with the E-Government Act of 
2002, is only 5 years old. We have not yet fully tapped the promise of 
the Internet as a valuable tool for the Federal Government and the 
public.
    Appreciating both the value and the unfulfilled potential of e-
government services, I was delighted to join Senator Lieberman as an 
original cosponsor of S. 2321, the E-Government Reauthorization Act of 
2007.
    Apart from its reauthorization of several important programs, the 
bill contains an additional provision that will improve the public's 
ability to access Federal information posted on the Internet by 
encouraging Federal agencies to make online public information open to 
indexing by commercial search engines.
    I understand that a large portion of Federal Web pages are not 
configured to permit automated indexing by ``crawlers'' or ``spiders'' 
for search services like Google, Yahoo!, or Ask.com. If the pages are 
posted on the Web, I see little reason, as a general practice, for not 
making them accessible to search engines.
    Some agencies have expressed concern about this provision because 
they fear a citizen might download a form without accompanying 
instructions or without examining other important information. That may 
be a valid issue, but it is not unique to the Internet, and there 
should be ways to mitigate it without making useful materials invisible 
to search engines. The searchability provision of our reauthorization 
bill should lead to OMB guidelines that will encourage agencies to 
review the architecture of their Web pages and make any necessary 
changes to address such concerns.
    That is just one example, Mr. Chairman, of the E-Government issues 
that the government must address. Today's witnesses from OMB, 
Wikipedia, Google, and the Center for Democracy and Technology are well 
positioned to advise us on the state-of-the-art and on best practices 
for enhancing the value of E-Government to Federal agencies and to the 
American public.


[GRAPHIC] [TIFF OMITTED] 40507.001

[GRAPHIC] [TIFF OMITTED] 40507.002

[GRAPHIC] [TIFF OMITTED] 40507.003

[GRAPHIC] [TIFF OMITTED] 40507.004

[GRAPHIC] [TIFF OMITTED] 40507.005

[GRAPHIC] [TIFF OMITTED] 40507.006

[GRAPHIC] [TIFF OMITTED] 40507.007

[GRAPHIC] [TIFF OMITTED] 40507.008

[GRAPHIC] [TIFF OMITTED] 40507.009

[GRAPHIC] [TIFF OMITTED] 40507.010

[GRAPHIC] [TIFF OMITTED] 40507.011

[GRAPHIC] [TIFF OMITTED] 40507.012

[GRAPHIC] [TIFF OMITTED] 40507.013

[GRAPHIC] [TIFF OMITTED] 40507.014

[GRAPHIC] [TIFF OMITTED] 40507.015

[GRAPHIC] [TIFF OMITTED] 40507.016

[GRAPHIC] [TIFF OMITTED] 40507.017

[GRAPHIC] [TIFF OMITTED] 40507.018

[GRAPHIC] [TIFF OMITTED] 40507.019

[GRAPHIC] [TIFF OMITTED] 40507.020

[GRAPHIC] [TIFF OMITTED] 40507.021

[GRAPHIC] [TIFF OMITTED] 40507.022

[GRAPHIC] [TIFF OMITTED] 40507.023

[GRAPHIC] [TIFF OMITTED] 40507.024

[GRAPHIC] [TIFF OMITTED] 40507.025

[GRAPHIC] [TIFF OMITTED] 40507.026

[GRAPHIC] [TIFF OMITTED] 40507.027

[GRAPHIC] [TIFF OMITTED] 40507.028

[GRAPHIC] [TIFF OMITTED] 40507.029

[GRAPHIC] [TIFF OMITTED] 40507.030

[GRAPHIC] [TIFF OMITTED] 40507.031

[GRAPHIC] [TIFF OMITTED] 40507.032

[GRAPHIC] [TIFF OMITTED] 40507.033

[GRAPHIC] [TIFF OMITTED] 40507.034

[GRAPHIC] [TIFF OMITTED] 40507.035

[GRAPHIC] [TIFF OMITTED] 40507.036

[GRAPHIC] [TIFF OMITTED] 40507.037

[GRAPHIC] [TIFF OMITTED] 40507.038

[GRAPHIC] [TIFF OMITTED] 40507.039

[GRAPHIC] [TIFF OMITTED] 40507.040

[GRAPHIC] [TIFF OMITTED] 40507.041

[GRAPHIC] [TIFF OMITTED] 40507.042

[GRAPHIC] [TIFF OMITTED] 40507.043

[GRAPHIC] [TIFF OMITTED] 40507.044

[GRAPHIC] [TIFF OMITTED] 40507.045

[GRAPHIC] [TIFF OMITTED] 40507.046

[GRAPHIC] [TIFF OMITTED] 40507.047

[GRAPHIC] [TIFF OMITTED] 40507.048

[GRAPHIC] [TIFF OMITTED] 40507.049

[GRAPHIC] [TIFF OMITTED] 40507.050

[GRAPHIC] [TIFF OMITTED] 40507.051

[GRAPHIC] [TIFF OMITTED] 40507.052

[GRAPHIC] [TIFF OMITTED] 40507.053

[GRAPHIC] [TIFF OMITTED] 40507.054

[GRAPHIC] [TIFF OMITTED] 40507.055

[GRAPHIC] [TIFF OMITTED] 40507.056

[GRAPHIC] [TIFF OMITTED] 40507.057

[GRAPHIC] [TIFF OMITTED] 40507.058

[GRAPHIC] [TIFF OMITTED] 40507.059

[GRAPHIC] [TIFF OMITTED] 40507.060

[GRAPHIC] [TIFF OMITTED] 40507.061

[GRAPHIC] [TIFF OMITTED] 40507.062

[GRAPHIC] [TIFF OMITTED] 40507.063

[GRAPHIC] [TIFF OMITTED] 40507.064

[GRAPHIC] [TIFF OMITTED] 40507.065

[GRAPHIC] [TIFF OMITTED] 40507.066

[GRAPHIC] [TIFF OMITTED] 40507.067

[GRAPHIC] [TIFF OMITTED] 40507.068

[GRAPHIC] [TIFF OMITTED] 40507.069

[GRAPHIC] [TIFF OMITTED] 40507.070

[GRAPHIC] [TIFF OMITTED] 40507.071

[GRAPHIC] [TIFF OMITTED] 40507.072

[GRAPHIC] [TIFF OMITTED] 40507.073

[GRAPHIC] [TIFF OMITTED] 40507.074

[GRAPHIC] [TIFF OMITTED] 40507.075

[GRAPHIC] [TIFF OMITTED] 40507.076

[GRAPHIC] [TIFF OMITTED] 40507.077

[GRAPHIC] [TIFF OMITTED] 40507.078

[GRAPHIC] [TIFF OMITTED] 40507.079

[GRAPHIC] [TIFF OMITTED] 40507.080

                                 <all>

</pre></body></html>
